No.____
IN THE SUPREME COURT OF THE UNITED STATES
_____________________
INTERMESSAGE COMMUNICATIONS, INC., PETITIONER
v.
AMERITECH MOBILE COMMUNICATIONS, INC, RESPONDENT
_______________________
ON APPLICATION FOR EXTENSION OF TIME
TO FILE PETITION FOR WRIT OF CERTIORARI TO THE OHIO SUPREME COURT
PETITIONER’S APPLICATION FOR EXTENSION OF TIME TO FILE PETITION FOR
WRIT OF CERTIORARI TO THE OHIO SUPREME COURT
_______________________

Dennis R. Rose
Counsel of Record
Hahn Loeser & Parks, LLP
200 Public Square, Suite 2700
Cleveland, OH 44114
(216) 621-0150
drrose@hahnlaw.com
Counsel for Petitioner
May 14, 2019
Supreme Court Bar No: 39416

APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE
OHIO SUPREME COURT
To the Honorable Justice Sonia M. Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the United States Court of Appeals for the Sixth Circuit:
Pursuant to Rules 13.5, 21, 22, and 30.2 of this Court, Petitioner Intermessage
Communications, Inc. respectfully requests that the time to file a petition for a writ of certiorari to
the Ohio Supreme Court be extended for 60 days, to and including July 22, 2019.
The Ohio Supreme Court issued an opinion on December 18, 2018 (see Appendix A) and
denied the Petitioner’s Motion for Reconsideration on February 20, 2019 (see Appendix B).
Petitioner is not filing this application at least ten days prior to the current due date of May 21,
2019, see S. Ct R. 13.5, but there are exigent circumstances in that the key member of the team
working on the petition, attorney Randy J. Hart, was involved in a car accident on the morning of
Thursday, May 2, 2019 as explained below. This Court would have jurisdiction over the judgment
pursuant to 28 U.S.C. § 1254(1).
BACKGROUND
Petitioner is a small business located in the Cleveland, Ohio area. Respondents are in the
business of supplying telecommunications services in Ohio. In earlier litigation the Respondents
were found to have violated various provisions of Ohio law. Ohio law provided for a separate
action seeking damages for such unlawful activity. Petitioner brought action under that Ohio law
for damages.
This dispute has resulted in an opinion by the Ohio Supreme Court which prevented
Petitioner from proceeding with this damage action, and the denial of a motion to reconsider. (See
Appendix A and B). In its opinion the Ohio Supreme Court held that since Petitioner was not a

party to the earlier decision, it could not utilize the statute that provided for the damage action.
Petitioner has decided to file a petition for a writ of certiorari with this Court. The petition for a
writ of certiorari will ask the Supreme Court to determine, inter alia, that Ohio’s action would
deprive Petitioner of any access to Ohio courts to address the issues that have already been found
to have been unlawful.
REASONS FOR GRANTING AN EXTENSION OF TIME
Petitioner’s time to file a petition for a writ of certiorari should be extended for 60 days for
the following reasons:
1.

The lead lawyer on the underlying case is Randy J. Hart, a Cleveland, Ohio attorney. Mr.

Hart is working with the undersigned counsel to prepare the Petition for Certiorari. On May 2,
2019, Mr. Hart was involved in a two-vehicle collision that resulted in injury has prevented Mr.
Hart from completing the work necessary to make the filing within the time frame allotted.
Further, Mr. Hart has been involved with this dispute for nearly 29 years, dating back to October,
1990 and his institutional knowledge of the facts and circumstances is invaluable to completing
the petition.
2.

Prior to the filing of the Motion, it was believed that Mr. Hart would be able to assist in a

timely fashion. But it is now clear that his participation requires this extension.
3.

The record in this case is substantial with the opinions of the Ohio Supreme Court along

with the appendix which requires a great deal of material from the early 1990’s. Without Mr.
Hart’s participation, it would be impossible for other counsel to put the information together
without the extension. Additional time is necessary and warranted for counsel to prepare the
petition for a writ of certiorari.

4.

The extension would not work any meaningful prejudice on any party because, if this Court

grants the petition, this Court would likely hear oral argument and issue its opinion in the October,
2019 term regardless of whether an extension is granted
CONCLUSION
For the reasons stated above, Petitioner Intermessage Communications, Inc., respectfully
requests that the time to file a petition for a writ of certiorari in this matter be extended by 60 days,
from May 21, 2019, through and including, July 22, 2019.

Respectfully submitted,
May 14, 2019

/s/ Dennis R. Rose
Dennis R. Rose
Counsel of Record
Hahn Loeser & Parks, LLP
200 Public Square, Suite 2700
Cleveland, OH 44114
(216) 621-0150
drrose@hahnlaw.com
Counsel for Petitioner
Supreme Court Bar No: 39416

